     Department of Homeland Security

     ��������������������������



      DHS’ System To Enable Telework Needs a 

            Disaster Recovery Capability





OIG-14-55                                March 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                       March 21, 2014 
 
MEMORANDUM FOR:	             Luke J. McCormack 
                             Chief Information Officer  
                             Management Directorate
 
FROM:	                        Richard Harsche 
                              Acting Assistant Inspector General 
                               Office of Information Technology Audits 
                               
SUBJECT:	                      DHS’ System To Enable Telework Needs a Disaster 
                               Recovery Capability 
                                
Attached for your information is our final letter report, DHS’ System To Enable Telework 
Needs a Disaster Recovery Capability. We incorporated the formal comments from the 
Management Directorate in the final report.  
 
The report contains two recommendations aimed at improving the Workplace as a 
Service. Your office concurred with both recommendations. As prescribed by 
Department of Homeland Security Directive 077‐01, Follow‐Up and Resolution for Office 
of Inspector General Report Recommendations, within 90 days of the date of this 
memorandum, please provide our office with a written response that includes your 
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion 
date for each recommendation.  Also, please include responsible parties and any other 
supporting documentation necessary to inform us about the current status of the 
recommendations.   
 
Once your office has fully implemented the recommendations, please submit a formal 
closeout request to us within 30 days so that we may close the recommendations. The 
request should be accompanied by evidence of completion of agreed‐upon corrective 
actions. 
 
Please email a signed PDF copy of all responses and closeout requests to 
OIGITAuditsFollowup@oig.dhs.gov. Until your response is received and evaluated, the 
recommendations will be considered open and unresolved.  
 
Consistent with our responsibility under the Inspector General Act, we will provide 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security. We will post 
the final report on our website for public dissemination. 
 
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Major contributors to this report are Sharon Huiswoud, Director; Kevin Burke, 

   Supervisory Auditor; Charles Twitty, Senior Auditor; and Steven Tseng, IT Specialist. 

    

   Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 

   Information Systems Division, (202) 254 5451. 

    

   Attachment 





www.oig.dhs.gov                               2                                       OIG-14-55

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   The TeleworkfEnhancementfActfoff2010, Public Law 111-292, was enacted on December
   9, 2010, to improve telework across the Federal Government. Additionally, on July 15,
   2011, the Office of Management and Budget (OMB) issued a memorandum highlighting
   the benefits of teleworking, citing increases in productivity and reduced overhead costs.
   OMB has also emphasized the need for safeguards and reminded Federal agencies that,
   if not properly implemented, telework might introduce new security vulnerabilities into
   agency systems and networks.

   The Office of the Chief Information Officer (OCIO) is implementing two systems to
   enhance telework in the Department of Homeland Security (DHS). These systems are
   called Workplace as a Service (WPaaS) and are part of an overall effort to move to
   cloud-based services. In September 2011, DHS awarded within scope task order
   modifications to the contractors operating DHS’ Data Center 1 (DC1) and Data Center 2
   (DC2) to implement WPaaS. Under the task orders, the contractors were to provide the
   government with complete physical environments which would provide the same
   functionality available on current DHS laptops and desktops. In addition, the task orders
   required the contractors to make the respective workplace environments accessible
   from all DHS components and organizations and from anywhere within the DHS OneNet
   and through appropriate technologies from any location where employees conduct
   work.

   The WPaaS systems provide a virtualized desktop on a remote server located at one of
   the DHS data centers. The contractors were to provide a user experience equivalent to
   that of the user’s local Windows desktop. DHS components provide images to the data
   center contractors that are similar to what the component users have on their desktops.
   These images then form the basis for creating an individual user’s virtual desktop.
   Individual user settings and customizations, such as desktop wallpaper, are applied to
   the virtual desktop from a WPaaS user profile management system.

   For WPaaS, telework employees access their virtual desktop by starting a virtual private
   networking session and connecting through the WPaaS Access Portal. The user
   credentials are authenticated against the DHS authentication system and then passed to
   the WPaaS servers to initiate a virtual desktop session. The contractor provides WPaaS
   storage space for the virtual desktops through a storage area network located at each
   data center.

   The contractors have installed hardware, software, and telecommunications capabilities
   at DC1 and DC2 to implement WPaaS. Under the task orders, the contractor bears the
   costs to set up, manage, and deliver WPaaS. Subsequently, after OCIO places WPaaS in a


www.oig.dhs.gov                                3                                       OIG-14-55

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   production environment, OCIO will charge the components for specific WPaaS
   capabilities. Specifically, DHS will reimburse the contractors based on the costs
   associated with WPaaS contract line item numbers (CLIN). The OCIO developed these
   CLINs to cover the contractors’ costs for providing WPaaS services, plus a margin for
   fees.

   Additionally, OCIO has provided funding to the components for WPaaS user testing.1
   The contractors have created WPaaS user IDs and virtual desktop images for
   approximately 750 users from DHS components. These users have tested the ability of
   the DC1 WPaaS system to access their component’s information systems.

   DHS requires both WPaaS contractors to provide continuity of operations and disaster
   recovery capabilities.

   Results of Audit
   DHS’ System To Enable Telework Needs a Disaster Recovery Capability

   DHS OCIO needs to ensure the Department’s initiative to enhance telework, WPaaS, has
   a disaster recovery capability, including an alternate processing site. Without an
   alternate processing site, DHS employees who use WPaaS to telework would not be able
   to access their systems and data during an emergency situation. For example, if there
   were an outage at DC1, WPaaS users would have to wait for DC1 to be restored before
   they could once again access their systems.

   Initially, the contractors were to implement a WPaaS system at each of DHS’ data
   centers, DC1 and DC2. However, the different WPaaS versions developed by the
   respective DC1 and DC2 contractors did not provide alternate processing capabilities for
   each other. According to DHS staff, each contractor would need to establish a WPaaS
   space at the other contractor’s data center to enable an alternate processing site.
   However, the contractors have not implemented the required alternate processing
   capability. Additionally, a WPaaS contractor space at the other contractor’s facility has
   not been established because no DHS component has agreed to purchase contingency
   processing capability.

   Further, in June 2013, OCIO decided to discontinue funding for WPaaS at DC2 due to
   delays stemming from technical issues that developed as the contractor was attempting
   to implement WPaaS at DC2. According to OCIO, the DC2 contractor did not provide a



   1
       According to the Department, $2,627,561.27 was obligated to enable components to use WPaaS.


www.oig.dhs.gov                                       4                                              OIG-14-55

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   working solution to meet the minimum requirements, and in June 2013, OCIO
   postponed implementing WPaaS at DC2.

   According to the Department’s FIPS Publication 199, StandardsfforfSecurityf
   CategorizationfoffFederalfInformationfandfInformationfSystems review, the DC1 WPaaS
   has a security categorization of moderate. According to the National Institute of
   Standards and Technology (NIST), for all moderate- or high-impact systems, the
   contingency plan should include a strategy to recover and perform system operations at
   an alternate facility for an extended period.2 In addition, NIST 800-34 recommends that
   contingency planning controls for systems with a moderate security categorization
   should include the identification of an alternate processing site. Further, NIST also
   recommends that the organization should identify an alternate processing site that is
   separated from the primary processing site to reduce susceptibility to the same threats.3

   OCIO has recognized contingency planning deficiencies in the security plan for the DC1
   WPaaS, including both the need for an alternate processing site and the need for plans
   to recover operations at an alternate site. OCIO designated these deficiencies as a
   moderate risk, and has left it up to the components using WPaaS to determine whether
   an alternate processing site is needed for their particular situations. If a component
   determines it needs an alternate site for WPaaS, the WPaaS contractor can provide a
   cost estimate for this capability. As of November 2013, no DHS component had
   committed to purchasing this capability.

   We have identified the need for adequate contingency planning at DHS in previous
   reports. For example, in August 2013, we reported that DHS needed to update
   contingency plans to reflect current system information.4 Based on our review of plans
   for seven enterprise mission essential systems, we determined that two of seven plans
   did not identify adequate alternate locations for contingency operations.




   2
     NIST Special Publication 800-34 Revision 1, ContingencyfPlanningfGuidefforfFederalfInformationfSystems, 

   May 2010.

   3
     NIST Special Publication 800-53 Revision 4, SecurityfandfPrivacyfControlsfforfFederalfInformationfSystemsf

   andfOrganizations, April 2013. 

   4
     DHSfNeedsfTofStrengthenfInformationfTechnologyfContinuityfandfContingencyfPlanningfCapabilities

   (OIG-13-110), August 2013.


www.oig.dhs.gov                                         5                                                OIG-14-55

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Recommendations
   We recommend that the DHS Chief Information Officer (CIO):

   Recommendation #1:

   Identify an alternate processing site for the DC1 WPaaS.

   Recommendation #2:

   Revise the DC1 WPaaS contingency plan to include a strategy to recover and perform
   system operations at an alternate processing site for an extended period.

   Management Comments and OIG Analysis
   We obtained written comments on a draft of this report from the Director,
   Departmental GAO-OIG Audit Liaison Office. We have included a copy of the comments
   in their entirety at appendix B. DHS concurred with recommendations one and two.
   Additionally, Management Directorate provided a summary of the actions they plan to
   take to implement these recommendations. Until we receive the corrective action plan
   with target completion dates and supporting documentation for the implementation of
   their actions, we consider recommendations 1 and 2 open and unresolved.




www.oig.dhs.gov                               6                                    OIG-14-55

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   One of the objectives of this audit was to determine whether the OCIO had
   implemented required security documentation for the WPaaS, including effective
   disaster recovery plans. Due to the WPaaS objectives to enhance telework capability, we
   determined the OCIO’s WPaaS systems to be within our audit scope.

   We conducted the audit primarily in the Washington, DC area, as well as at DC1 and
   DC2. We reviewed WPaaS associated documentation such as the authority-to-operate
   letters, vulnerability assessments, contingency plans, and requisitions. We also reviewed
   applicable DHS and component policies and procedures, as well as government-wide
   guidance. We gave briefings and presentations to DHS staff concerning the results of
   fieldwork and the information summarized in this report.

   We conducted this performance audit between March 2013 and November 2013
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                               7                                        OIG-14-55

                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report

                                                                                            U.S. Department of Homel•nd Secu rity
                                                                                            WllShington, DC 10528



                                                                                            Homeland
                                                                                            Security
                                                          February 28,20 14


                  MEMO RANDUM FOR:              Richard Harsche
                                                Acting Assislanl Lnspeclor Generdl
                                                Office of Information Technology Audits

                  FROM:                         Jim H. Crumpacker
                                                Director
                                                                       ~:!_~........JL_
                                                Dep artmental GAO-OJ Liaison        ffice

                  SUBJECT:                      OJG Dra n Report: "DHS' Initiative to Enhance Telewo rk Needs a
                                                Disaster Recovery Capability" (Project No. 13-006-lTA-MGMT)


                  Thank you for the opportunity to review and comment on this draft report. The C.S. Department of
                  Homeland Security (IJHS) appreciates the Office of Inspector General's (OIG's) work in p lanning and
                  conducting its review and issuing this report.

                  DRS is pleased to note OIG's recognition thnt the DHS Office of the Chief Information Officer
                  (OClO) has developed a Work Place as a Service (WPaaS) offering that provides a virtual desktop
                  with a user experience equivalent to tha t nf the user's local W indows desktop. DHS OCIO's
                  WPaaS can be used both for teleworking and as an alternative to the desktop workstation to reduce
                  operational costs.

                  The draft report contained two recommendations with which the Department concurs. Specifical ly,
                  OIG recommended that the DHS Chief Information Officer:

                  Recommendation 1: Identify an alternate processing site for the DC l [Data Center 1) WPaaS.

                  Response: Concur. DHS OCIO has selected Data Center Two (DC2) as the alternate processing
                  site for WPaaS <:tnd is doc umenting it as suc h in the appropriate security plans. If Compone nts
                  require an alternate processing site, they have the option to purchase the necessary Contract Line
                  Item Numbers for services needed to meet their Component-specific requirements. This enables
                  Components to make the best use of fu nding and mu~t e m cient tL~e o f resources to achieve their
                  respective missions. Estimated Completion Date (ECD): April 30, 2014.

                  Recommendation 2 : Revise the DC I WPaaS contingency plan to incl ude a strategy to recover
                  and perform system operations at an alternate processing site for an extended period.




www.oig.dhs.gov                                                 8                                                                   OIG-14-55

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  Response: Concur. DHS OClO is revising the WPaaS contingency plan to include DC2 as the
                  alternate site for system recovery and will also amend the appropriate security plans.
                  E CD: Apri1 30, 2014.

                  Again, thank you for the opportunity to review and comment on this draft report. Technical
                  comments were previously providt:d under separate cover. Please feel free to contact me should
                  you have any questions. We look fonvard to working with you again in the future.




                                                                                                               2




www.oig.dhs.gov                                                9                                                   OIG-14-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C

   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   DHS CIO Audit Liaison
   DHS Chief Information Security Officer
   DHS CISO Audit Liaison
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner


   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  10                        OIG-14-55

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
